No.

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID LEE SMITH, INDIVIDUALLY AND IN HIS CAPACITY AS
REPRESENTATIVE OF THE ESTATE OF MARY JULIA HOOK,
DECEASED,
PETITIONER
VS.
UNITED STATES OF AMERICA, LNV CORPORATION,
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PROOF OF SERVICE
DECLARATION IN COMPLIANCE WITH 28 U.S.C. § 1746

I, David Lee Smith, do swear or declare that on this date, October 7, 2021, on
each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

1

The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Richard E. Zuckerman
Bruce R. Ellisen
Curtis C. Pett
U.S. Department of Justice, Tax Division, Appellate Section
Post Office Box 502
Washington, D.C. 20044
Duncan E. Barber
Julie A. Trent
Shapiro Bieging Barber Otteson LLP
7979 E. Tufts Ave., Suite 1600
Denver, CO 80237
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 7, 2021.

2
{

